12. How to Stop Payment on a Balance Transfer
You may request a stop payment on a Balance Transfer by
notifying us by telephone at the number shown on your
monthly statement. The request will only be effective for
14 days unless during that period you confirm, in writing,
which describes with certainty the item on which payment
is to be stopped. Notice must be received by us at ESL,
Cardholder Service, P.O. Box 31112, Tampa, FL 33631-3112 in
a timely manner so as to afford us a reasonable opportunity
to act upon it. In any event, we may disregard any stop
payment request six months after we receive it unless you
renew it in writing within the six month period. We will use
commercially reasonable efforts to stop payment of the
Balance Transfer. However, you agree that we will not be
responsible in any way if a Balance Transfer is processed or
otherwise presented for payment after you have requested
us to stop payment and, using commercially reasonable
efforts, we are unable to stop the payment.
13. Credit Information
We may investigate your credit standing and request credit
reports about you in connection with your application and
updates, renewals, extensions and collection activity and
as otherwise permitted by law. At your request, we will tell
you whether we requested a report and, if so the name
and address of the credit reporting agency which provided
it. We may disclose information about your account to
credit bureaus and creditors who inquire about your credit
standing.
14. Returns and Credit Balances
Merchants and others who honor the Card may give credit
for returns or adjustments by sending a credit transaction
which will post to your account. The credit will be applied
first to pay what you owe us under this Agreement. If there is
a credit balance (i.e. a balance in your favor) on your account,
we will hold it and apply it to future amounts owed but will
not pay you interest on it. We will refund a credit balance to
you if you ask. If the credit balance is greater than $50, your
request must be in writing. If a credit balance greater than $1
remains in your account for six months, we will automatically
refund it to you. We may charge to your account or you will
pay us any amount that we refund in error.
15. Exchange Rates for Foreign Transactions
Purchases and Cash Advances made in foreign countries and
foreign currencies will be billed to you in U.S. Dollars.

The exchange rate between the transaction currency and
the billing currency used for processing international
transactions is a rate selected by Visa from the range of rates
available in wholesale currency markets for the applicable
central processing date, this rate may vary from the rate Visa
itself receives, or the government-mandated rate in effect
for the applicable central processing date, plus 1%.
16. Monitoring Telephone Calls
By using your Card the first time, you authorize ESL and
its servicer to record and monitor your calls regarding this
account.
17. Responsibility for Use of Card/Notices
Each person who has accepted and agreed to the terms of
this Agreement is individually responsible for all amounts
owed on the account and all are jointly responsible for all
amounts owed. This means ESL can enforce this Agreement
against any of you individually or all of you together. You are
responsible for advances obtained by anyone that one of
you authorizes to use the account. Each of you remains fully
responsible even if another agreement, a divorce decree, or
a court order directs only one of you or a third party to pay.
Statements and notices addressed and mailed to any one
of you at the most recent address we have for you in our
records will be considered to have been sent to all of you.
18. Liability for Unauthorized Use
You may be liable for the unauthorized use of your Card.
You will not be liable for unauthorized use that occurs after
you notify us orally or in writing at Cardholder Service, P.O.
Box 31112, Tampa, FL 33631-3112 or at 800.449.7728 (or
from outside the United States at 727.571.2200) of the
loss, theft or possible unauthorized use. Notwithstanding
the above, you may be liable for any amount to the extent
allowed under applicable law if we determine that you
were grossly negligent or fraudulent in the handling of your
account.
19. Governing Law
Any legal question under this Agreement will be decided in
accordance with applicable federal and New York State law
without regard to the laws of any other state. This Agreement
is made, and credit is extended in New York.

20. Change in Terms
A change in terms notice regarding this account will be
made in accordance with applicable regulation.
YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your
rights and our responsibilities under the Fair Credit Billing
Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS ABOUT
YOUR STATEMENT – If you think your statement is wrong,
or if you need more information about a transaction on
your statement, write to Cardholder Service, P.O. Box 31112,
Tampa, FL 33631-3112. We must hear from you no later than
60 days after we sent you the FIRST statement on which
the error or problem appeared. You can telephone us at
800.820.6039, but doing so will not preserve your rights.
In your letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain if you can, why you
believe there is an error. If you need more information,
describe the item you are not sure about.
YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE
RECEIVE YOUR WRITTEN NOTICES – We must acknowledge
your letter within 30 days, unless we have corrected the
error by then. Within 90 days, we must either correct the
error or explain why we believe the statement was correct.
After we receive your letter, we cannot try to collect any
amount you question, or report you as delinquent. We
can continue to bill you for the amount you question,
including finance charges, and we can apply any unpaid
amount against your credit limit. You do not have to pay any
questioned amount while we are investigating, but you are
still obligated to pay the parts of your statement that are not
in question.
If we find that we made a mistake on your statement, you
will not have to pay any finance charges related to any
questioned amount. If we didn’t make a mistake, you may
have to pay finance charges, and you will have to make up
any missed payments on the questioned amount. In either
case, we will send you a statement of the amount you owe
and the date that it is due.

If you fail to pay the amount that we determine you owe, we
may report you as delinquent. However, if our explanation
does not satisfy you and you write to us within 10 days telling
us that you still refuse to pay, we must tell anyone we report
you to that you have a question about your statement. And,
we must tell you the name of anyone we reported you to.
We must tell anyone we report you to that the matter has
been settled between us when it finally is. If we don’t follow
these rules, we cannot collect the first $50 of the questioned
amount, even if your statement was correct.
Special Rule for Credit Card Purchases
If you have a problem with the quality of property or services
that you purchased with an ESL credit card, and you have
tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount
due on the property or services. There are two limitations to
this right.
1. You must have made the purchase in your home state
or, if not within your home state, within 100 miles of
your current mailing address; and
2. The purchase price must have been more than $50.
These limitations do not apply if ESL owns or operates the
merchant, or if ESL mailed you the advertisement for the
property or services.
Accepted by:
ESL Federal Credit Union
Corporate Headquarters
225 Chestnut Street
Rochester, NY 14604

ESL Federal Credit Union

ESL
Credit Card
Agreement
for:
ESL Visa® Credit Card
ESL Rewards Visa
Signature® Credit Card

M-124837 (04/18)

RETAIL INSTALLMENT CREDIT AGREEMENT
1. Agreement
This Agreement is between ESL Federal Credit Union (called
“ESL”, “us” or “we”) and each person who accepts the Visa
account (called “you”). The word “Card” refers to any Visa
Card(s) or Card number we issue under this Agreement. Sign
your Card before you use it. The first use of your Card or the
Card number means that you accept and agree to be bound
by all the terms of this Agreement.
2. Using the Card/Account
You may use the Card to make purchases in person, by mail,
electronically (through the Internet) or by telephone from
merchants and the others who accept Visa Cards. Any financial
service provided by ESL Federal Credit Union may be used for
any transaction permitted by law. You agree that the illegal
use of any financial service will be deemed an action of default
and/or breach of contract and such service and/or other
related services may be terminated at the discretion of ESL.
You further agree, should illegal use occur, to waive the right
to sue ESL for such illegal activity directly or indirectly related
to it. You also agree to indemnify and hold ESL harmless from
any suits or other legal action or liability, resulting from such
illegal use. ESL is not responsible if any merchant refuses to
accept the Card. You may also obtain cash advances from
ESL, from other financial institutions participating in the
Visa program, and from ATMs which display the PLUS or
VISA network logos. (Not all ATMs provide such access and
you will need to use your Personal Identification Number at
those that do.)
3. Credit Limit
When we send you the Card, and on each Monthly
Statement, we will tell you your credit limit. You may request
an increase in your credit limit by a written application,
online application or a telephone request. The portion of
your payments applied to the principal may be re-borrowed,
up to your current credit limit. We can adjust your credit limit
at any time, including automatic credit line increases for
those who qualify or terminate your borrowing privileges at
any time without prior notice to you. You may not allow the
balance outstanding under this Agreement to exceed your
credit limit. We may, however, at our discretion, honor your
request for an advance that will exceed your credit limit. If
we do, all the provisions of this Agreement will apply to that
excess, you will be charged finance charges on the advance,

and you must pay the entire excess to us on demand. We
may restrict the amount of your credit limit that can be used
for Cash Advances.
4. Payments
You agree to repay all advances made under this Agreement
in response to a request by you or anyone you authorize and
all finance charges and all other charges and amounts owed
under this Agreement. Within 25 days after the statement
closing date each month, you must make a minimum
payment:
A. For accounts opened June 1, 2017 through April 30,
2018 – The minimum payment will be equal to the sum
of: (i) the greater of 2.7% of your Total New Balance or $25;
(ii) any amounts that are past due; (iii) the portion of your
balance that exceeds your credit limit; (iv) any applicable
rewards participation fee then due; (v) any late fees that
you owe; and (vi) any other fees you may owe.
B. For all other accounts – The minimum payment will be
equal to the sum of: (i) the greater of 2.0% of your Total
New Balance or $30; (ii) any amounts that are past due; (iii)
the portion of your balance that exceeds your credit limit;
(iv) any applicable rewards participation fee then due; (v)
any late fees that you owe; and (vi) any other fees you may
owe.
You may pay more than the minimum due or your
entire indebtedness in full at any time. We may allocate
payments to amounts due in any manner or order chosen
by us, provided we comply with any applicable laws or
regulations.
5. Receipt of Payment
If we receive your payment, with a payment stub, at the
address indicated on the front of your monthly statement by
5:00 p.m., Monday through Friday (excluding legal holidays)
we will credit it to your account the same day. If your payment
is received later in the day, it will be credited to your account
the next business day. If we receive your payment at another
location or without the payment stub, we will credit it within
five business days. We may return without presentment or
protest and without credit to your account any check which
is: (i) missing a signature; (ii) drawn with different numeric
and written amounts; (iii) postdated; (iv) not payable to ESL;
(v) not paid upon presentment; (vi) drawn on a bank outside
the United States.

6. Irregular Payments
We will not lose any rights if we accept late payments, partial
payments, checks or money orders marked “payment in full”
or with similar words or phrases or other irregular payments.
7. Payment Holidays
From time to time, we may offer you a payment holiday
allowing you to skip a minimum payment. Finance charges, if
any, will continue to accrue on your balance at the applicable
periodic rate and the period within which you must pay
the Total New Balance to avoid paying finance charges on
purchases will not be extended. The regular payment terms
will resume at the end of the payment holiday.
8. Finance Charge
The total finance charge you owe for a billing cycle will be
equal to the “Periodic Rate Finance Charge.” The minimum
finance charge is $.50 in any billing cycle during which
there is an outstanding balance in your account subject to
a finance charge. You will continue to pay a finance charge
at a periodic rate calculated as described in and under
this Agreement until what you owe is paid in full. Finance
charges can continue to accrue after the date your monthly
statement is generated. Therefore, even if you pay the Total
New Balance shown on your monthly statement and do not
take any additional advances after that date, you may still
owe additional finance charges which accrued after that
Total New Balance was determined.
A. Periodic Rate Finance Charge – We calculate the
Periodic Rate Finance Charge by (i) multiplying the
applicable daily periodic rate by (a) the “purchase average
daily balance” and (b) the “Cash Advance average daily
balance”; (ii) adding those amounts together; and
(iii) multiplying the sum by the number of days in the
billing cycle.
(1) Amount to Which Periodic Rate is Applied
To get the “purchase average daily balance,” each
day we take the beginning balance of your account
attributable to purchases that day, add any new
purchases or purchase debits that day and subtract
any payments or credits attributable to purchases that
day. We do not include any unpaid finance charges. This
gives us the “purchase daily balance.” Then we add up
all the “purchases daily balances” for the billing cycle
and divide the total by the number of days in the billing

cycle. This gives us the “purchase average daily balance.”
However, the “purchase average daily balance” will be
considered $0 if you pay your Total New Balance in full
by the billing cycle date and you paid your previous
balance in full by the billing cycle date.
To get the “Cash Advance average daily balance,” each
day we take the beginning balance of your account
attributable to Cash Advances that day, add any new
Cash Advances or Cash Advance debits that day and
subtract any payments or credits attributable to Cash
Advances that day. We do not include any unpaid
finance charges. This gives us the “Cash Advance daily
balance.” Then we add up all the “Cash Advance daily
balances” for the billing cycle and divide the total by
the number of days in the billing cycle. This gives us
the “Cash Advance average daily balance.” There is no
“grace” period for Cash Advances.
(2) Determination of the Daily Periodic Rate
The daily periodic rate equals the Annual Percentage
Rate (APR) divided by 365.
Introductory Rate – An introductory daily periodic rate
of 0.00% which is equivalent to an APR of 0.00% will be
used for the first 12 monthly billing cycles following the
date on which your account is opened unless the Past
Due Rate applies (see below).
Purchase and Balance Transfer Base Rate:
a. ESL Visa Credit Card – After the introductory rate
period ends, and provided the Past Due Rate does
not apply, the APR will be variable and will equal the
highest domestic Prime Rate published in the Money
Rates section of The Wall Street Journal as of five
business days prior to the first day of the calendar
month in which the billing cycle begins (called the
“Index”) plus 5.00 to 14.24 percentage points based
on your creditworthiness (5.00% to 14.24%) (called
the “Base Rate”). The Base Rate can change on the
first day of each billing cycle.
b. ESL Rewards Visa Signature Credit Card – After the
introductory rate period ends, and provided the Past
Due Rate does not apply, the APR will be variable and
will equal the highest domestic Prime Rate published
in the Money Rates section of The Wall Street Journal
as of five business days prior to the first day of the
calendar month in which the billing cycle begins

(called the “Index”) plus 8.00 to 14.24 percentage
points based on your creditworthiness (8.00% to
14.24%) (called the “Base Rate”). The Base Rate can
change on the first day of each billing cycle.
Cash Advance Base Rate:
a. For accounts opened June 1, 2017 through April
30, 2018 – After the introductory rate period ends,
and provided the Past Due Rate does not apply,
the APR will be variable and will equal the highest
domestic Prime Rate published in the Money Rates
section of The Wall Street Journal as of five business
days prior to the first day of the calendar month in
which the billing cycle begins (called the “Index”)
plus 6.73 to 14.74 percentage points based on your
creditworthiness (6.73% to 14.74%) (called the “Base
Rate”). The Base Rate can change on the first day of
each billing cycle.
b. For all other accounts – 17.90% (there is no
introductory rate on Cash Advances).
Past Due Rate (Penalty APR) – The APR applicable
starting on the first day of the first billing cycle after
your account becomes “past due” and continuing
until the billing cycle after the “past due” status is
corrected will be 18%. Your account will be “past due”
if the minimum monthly payment is not made for two
consecutive billing cycles.
Effect of an Increase – An increase in the APR will
result in an increase in the finance charge, the monthly
payment, and the outstanding balance of your account.
B. Cash Advance Fee – there is no Cash Advance Fee.
C. Balance Transfer Fee – there is no Balance Transfer
Fee.
D. Maximum Rate – The APR will not exceed the
maximum rate allowed by applicable law.
9. Other Charges
You will pay the following other charges as applicable.
A. Annual Membership Fee – there is no Annual
Membership Fee.
B. Documentary Evidence Charge – If you request
documentary evidence of a transaction (for example, a
copy of a sales draft or a duplicate monthly statement)

other than in connection with a billing error inquiry, you
will pay a Documentary Evidence Charge of up to $25
for each document. The charge will be added to your
Purchase Balance.
C. Late Fee – You will pay a Late Fee of up to $25 if your
Total New Balance on the last day of the billing cycle
exceeds $25 and your minimum payment has not been
received within three days following the payment due
date. The fee will be charged after the third day and added
to your Purchase Balance.
D. Returned Payment Charge – You will pay a Returned
Payment Charge of up to $25 if you pay us with a check
that your bank will not honor or that is incomplete or if we
return a check unpaid. The charge will be added to your
Purchase Balance.
E. Over the Credit-Limit Fee – there is no Over the
Credit-Limit Fee.
10. Default
You will be in default if: (i) you fail to make any minimum or
other required payment by the date it is due; (ii) you violate
any of the other terms of this Agreement; (iii) you default
in the payment of any other loan account with ESL; (iv) you
die; (v) you file for bankruptcy or become insolvent (unable
to pay your obligations as they become due); (vi) you make
any false or misleading statement on any credit application
or credit update or fail to provide complete and accurate
financial information within 30 days after a request from ESL
for the information; (vii) any judgment is entered against
you or any of your deposit accounts at ESL are attached or
levied upon; or (viii) something happens which ESL believes
may substantially reduce your ability to repay what you owe.
When you are in default, ESL has the right to demand
immediate payment for your full account balance without
prior notice. To the extent permitted by law, you will also be
required to pay collection expenses, including court costs
and reasonable attorney’s fees, incurred by ESL.
11. Balance Transfers
We will not process a Balance Transfer if: (i) you do not have
enough available credit in your account to cover the Balance
Transfer in full; (ii) your account or your right to obtain
advances has been suspended or terminated; (iii) your Card
has been reported stolen; or (iv) you are in default under this
Agreement.

